*

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2880

JAMAAL GITTENS,
Appellant
v.
JUDGE MELISSA T. PAVLACK

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 5-20-cv-00683)
District Judge: Honorable Timothy J. Savage

Submitted Pursuant to Third Circuit LAR 34.1(a)
January 22, 2021
Before: JORDAN, MATEY, and NYGAARD, Circuit Judges
(Opinion filed: February 1, 2021)

OPINION*
PER CURIAM
In February 2020, Jamaal Gittens filed a civil rights complaint against Judge
Melissa Pavlack of the Lehigh County Court of Common Pleas. Gittens claimed that

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

*

Judge Pavlack violated his Thirteenth Amendment right to be free from involuntary
servitude when she ordered that Gittens’ bank assets be frozen pursuant to state law
governing the enforcement of child support obligations. He also claimed that Judge
Pavlack’s “contract with the government” to locate non-custodial parents and obtain their
private financial information violated his constitutional rights. See Complaint, ECF No.
2 at 2. He requested civil damages. Id. at 3.
The District Court granted Gittens’ motion to proceed in forma pauperis but
dismissed his complaint sua sponte because Judge Pavlack is protected by judicial
immunity. See 28 U.S.C. § 1915(e)(2)(B)(iii) (stating that a court must dismiss a lawsuit
filed by a plaintiff proceeding in forma pauperis that “seeks monetary relief against a
defendant who is immune from such relief’). Gittens filed a motion for rehearing, which
the District Court construed as a motion for reconsideration and denied. Gittens
appealed.
We will affirm. A judge is immune from damages liability for all actions taken in
her judicial capacity, unless such action is taken in the “clear absence of all jurisdiction.”
See Stump v. Sparkman, 435 U.S. 349, 356-57 (1978) (citation omitted). Gittens does
not argue—nor does it appear—that Judge Pavlack acted in the absence of all
jurisdiction. Rather, Judge Pavlack’s order was a judicial act that was made in
i

We have jurisdiction under 28 U.S.C. § 1291. We exercise plenary review over the
District Court’s sua sponte dismissal of Gittens’ complaint, see Allah v. Seiverling. 229
F.3d 220, 223 (3d Cir. 2000), and we review for abuse of discretion the denial of his
reconsideration motion, see Max’s Seafood Cafe ex rel. Lou-Ann. Inc, v. Quinteros. 176
F.3d 669, 673 (3d Cir. 1999).
2

*

\J
accordance with state law. See Figueroa v. Blackburn. 208 F.3d 435, 443 (3d Cir. 2000)
(explaining that a “judicial act” is one that is “normally performed by a judge”); 23 Pa.
Cons. Stat. § 4305(b)(10) (stating that the domestic relations section of a Court of
Common Pleas can issue orders to “secure assets to satisfy current support obligation”
by, among other things, “[attaching and seizing assets of the obligor held in financial
institutions”).
Because Judge Pavlack is immune from suit, we agree with the District Court that
allowing Gittens to amend his complaint would have been futile. See Grayson v.
Mavview State Hosp., 293 F.3d 103, 108 (3d Cir. 2002); see also Alvin, v. Suzuki. 227
F.3d 107, 121 (3d Cir. 2000) (explaining that amendment is futile where the amended
complaint could not survive a motion to dismiss for failure to state a claim).2
We will therefore affirm the judgment of the District Court.

2 We also conclude that the District Court did not abuse its discretion in denying Gittens’
motion for reconsideration because the motion did not meet the requirements under either
Federal Rule of Civil Procedure 59(e) or 60(b). See Lazaridis v. Wehmer. 591 F.3d 666,
669 (3d Cir. 2010) (per curiam) (describing the grounds for a motion for reconsideration
under Rule 59(e)); Budget Blinds. 536 F.3d at 251 (3d Cir. 2008) (describing same under
Rule 60(b)).
3

Case 5:20-cv-00683-TJS Document 9 Filed 08/07/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

JAMAAL GITTENS
v.

NO. 20-683

JUDGE MELISSA T. PAVLACK
ORDER

NOW, this 7th day of August, 2020, upon consideration of the petitioner’s Motion
for Rehearing (Doc. No. 8) which shall be treated as a motion for reconsideration, it is
ORDERED that the motion is DENIED.

/s/ TIMOTHY J. SAVAGE J.

PITTENS v. JUDGE MELISSA T. PAVLACK

Doc. 6

Case 5:20-cv~00683-TJS Document 6 Filed 07/22/20 Page 1 of 4
j
•',-r

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JAMAAL GITTENS

CIVIL ACTION

v.
JUDGE MELISSA T. PAVLACK

NO. 20*683

MEMORANDUM
July 22, 2020

Savage, J.

Plaintiff Jamaal Gittens, acting pro se, has filed a Complaint and an application to
proceed in forma pauperis. Because it appears that Gittens is unable to afford to pay the
filing fee, we shall grant him leave to proceed in forma pauperis. After reviewing the
Complaint, we shall dismiss it with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(iii).
Factual Allegations 1
Gittens brings this civil rights action pursuant to 42 U.S.C. § 1983 against
defendant, Judge Melissa T. Pavlack, of the Lehigh County Court of Common Pleas. In
his Complaint, Gittens alleges that Judge Pavlack violated his rights under the Thirteenth
Amendment when she “enslaved [him] into involuntary servitude, by seizing [his] banking
assets” based on her “belief that [Gittens] owed $4,939.62 in child support to Elizabeth
McDonald.”2 Gittens further contends that Judge Pavlack has “a contract with the
government^ to locate noncustodial parents” in an effort to establish paternity.

He

characterizes this “contract” as “a conspiracy to deny equal protection, due process, [and

1

The facts set forth in this Memorandum are taken from Gittens’s Complaint and all the documents and
exhibits attached thereto.
2 Compl. at 2 (Doc. No. 2).

Dockets.Justia.com

4*

Case 5:20-cv-00683-TJS Document 6 Filed 07/22/20 Page 2 of 4
.1 «.r

the] right to privacy!.]"3 (Id.) Included with the Complaint is a copy of an “Order to Freeze
Assets” signed by Judge Pavlack on January 23, 2020 and entered pursuant to
Pennsylvania law governing enforcement of child support obligations.4 Gittens appears
to claim that the Thirteenth Amendment prevents Judge Pavlack from entering a judgment
against him or his assets.5 Based on these allegations, Gittens seeks damages in an
unspecified amount.6
Standard of Review
Pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii), we must dismiss the Complaint if it fails
to state a claim. Whether a complaint fails to state a claim under § 1915(e)(2)(B)(ii) is
governed by the same standard applicable to motions to dismiss under Federal Rule of
Civil Procedure 12(b)(6), see Tourscher v. McCullough, 184 F.3d 236,240 (3d Cir. 1999),
which means the complaint must contain “sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quotations omitted). “[M]ere conclusory statements do not suffice.” Id. Because

3 Id. Gittens previously filed a lawsuit pursuant to § 1983 in the United States District Court for the Western
District of Pennsylvania which named Judge Elizabeth K. Kelly of the Erie County Court of Common Pleas
and the Domestic Relations section of the Erie County Court of Common Pleas as defendants. See Gittens
v. Kelly, — F. App’x —, Civ. A. Nos. 18-1340 & 18-2841, 2019 WL 5691809, at *1 (3d Cir. Nov. 4, 2019).
In that action, Gittens challenged “a state court order declaring him to be the biological father of a child and
requiring him to pay child support." Id. Gittens “sought monetary damages and vacatur of the state court
order.” Id. On appeal, the United States Court of Appeals for the Third Circuit affirmed the district court's
dismissal of Gittens’s § 1983 claims on the basis of the Rooker-Feldman doctrine, the Younger abstention
doctrine, and Eleventh Amendment immunity. Id. at *1-2. The Third Circuit also noted that Gittens’s claims
against Judge Kelly were also barred by judicial immunity, despite Gittens's conclusory claims that the
judge acted outside of her judicial capacity. Id. at *2.
4 Compl. at 5-6.
5 Id. at 3.
6 Id. We do not read the Complaint to seek the invalidation of the state court Order, but merely, an award
of monetary damages for allegedly violating Gittens’s rights by entering that Order.

2

r
I*

Case 5:20-cv-00683-TJS Document 6 Filed 07/22/20 Page 3 of 4

a*.
plaintiff is proceeding pro se, we construe his allegations liberally. Higgs v. Att’y Gen.,
655 F.3d 333, 339 (3d Cir. 2011).
Discussion
Gittens’s Complaint alleges claims for violations of his civil rights pursuant to 42
U.S.C. § 1983. “To state a claim under § 1983, a plaintiff must allege the violation of a
right secured by the Constitution and laws of the United States, and must show that the
alleged deprivation was committed by a person acting under color of state law.” West v.
Atkins, 487 U.S. 42, 48 (1988).
We read Gittens’s Complaint to allege a claim for monetary damages against
Judge Pavlack in her individual capacity on the basis that the Order she entered freezing
Gittens’s bank assets in relation to the enforcement of child support obligations violated
his Thirteenth Amendment rights. Judges are entitled to absolute immunity from civil
rights claims that are based on acts or omissions taken in their judicial capacity, so long
as they do not act in the complete absence of all jurisdiction. See Stump v. Sparkman,
435 U.S. 349, 355-56 (1978); Harvey v. Loftus, 505 F. App’x 87, 90 (3d Cir. 2012) (per
curiam); Azubuko v. Royal, 443 F.3d 302, 303-04 (3d Cir. 2006) (per curiam). An act is
taken in a judge’s judicial capacity if it is “a function normally performed by a judge.”
Gallas v. Supreme Ct. of Pa., 211 F.3d 760, 768 (3d Cir. 2000). Moreover, “[generally .
. . ‘where a court has some subject matter jurisdiction, there is sufficient jurisdiction for
immunity purposes.’”

Figueroa v. Blackburn, 208 F.3d 435, 443-44 (3d Cir. 2000)

(quoting Barnes v. Winchell, 105 F.3d 1111,1122 (6th Cir. 1997)).
Here, the only allegations against Judge Pavlack are complaints arising from
judicial determinations she made and an order she entered in the course of proceedings
3

<*
Case 5:20-cv-00683-TJS Document 6

Filed 07/22/20 Page 4 of 4

{•S

concerning his child support obligations. Gittens has not set forth any facts suggesting
that Judge Pavlack acted in an absence of jurisdiction. Accordingly, Judge Pavlack is
entitled to absolute immunity in these circumstances.7 See Gromek v. Maenza, 614 F.
App’x 42,45 (3d Cir. 2015) (finding that the district court properly dismissed § 1983 claims
by a pro se litigant brought against New Jersey Superior Court judges on the basis of
judicial immunity where the judges acted in the course of child support proceedings); see
also Gittens, 2019 WL 5691809, at *2 (affirming the district court’s dismissal of Erie
County Court of Common Pleas judge on the basis of judicial immunity in a child support
matter brought against Gittens). Therefore, because Gittens’s claims are barred by
judicial immunity, his claims wilt be dismissed with prejudice as amendment would be
futile.

Is/ TIMOTHY J. SAVAGE J.

7 To the extent Gittens’s Complaint could be read to allege claims against Judge Pavlack in her official
capacity, they are also dismissed with prejudice on the basis of Eleventh Amendment immunity. Claims
brought against Judge Pavlack in her official capacity are realty claims brought against the Commonwealth
of Pennsylvania because, as a Court of Common Pleas judge, Judge Pavlack is considered an official of
the Commonwealth entitled to Eleventh Amendment Immunity. Van Tassel v. Lawrence Co. Domestic
Relations Section, 659 F.Supp.2d 672,676-82 (W.D. Pa. 2009), afFd, 390 F. App’x 201 (2010) (recognizing
that Pennsylvania common pleas judges are entitled to Eleventh Amendment immunity with respect to
official capacity claims).
4

L

Case 5:20-cv-00683-TJS Document 5 Filed 07/21/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JAMAAL GITTENS

CIVIL ACTION

v.
JUDGE MELISSA T. PAVLACK

NO. 20-683
ORDER

NOW, this 21st day of July, 2020, upon consideration of the Motion to Amend (Doc.
No. 4), it is ORDERED that the motion is GRANTED.

/si TIMOTHY J. SAVAGE J.

Additional material
from this filing is
available in the
Clerk's Office.

